No. 20In the

Supreme Court of the United States

Arthur Talbot & Kelley Bezrutch,
Petitioners,
v.
U.S. Bank National Association,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

John F. Brent, Esq.
Counsel of Record
1901 Pauline Boulevard
Ann Arbor, MI 48103
(734) 761-5222
jbrentlaw@gmail.com
Counsel for Petitioners

298776

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
In Conlin v. Mortgage Elec. Reg. Sys., 714 F.3d 355
(6th Cir. 2013) the Sixth Circuit Court of Appeals provided
that a court can only entertain the setting aside of a
foreclosure sale after expiration of the redemption period
where a mortgagor (here, Petitioners) makes ‘‘a clear
showing of fraud, or irregularity,” that such fraudulent
conduct ‘‘must relate to the foreclosure procedure itself,’’
and that a mortgagor must also show that they were
prejudiced by a foreclosing party’s failure to comply with
the Michigan foreclosure by advertisement statute and
that, to demonstrate such prejudice, the mortgagor must
show that they would have been in a better position to
preserve their interest in the property absent defendant’s
noncompliance with the statute. While the Sixth Circuit
has set a high bar to setting aside a post-redemptionperiod foreclosure, it, nevertheless, provides a means by
which mortgagors might find relief from a foreclosure that
was accomplished by fraudulent means. Petitioners assert
that they sufficiently pled facts to satisfy the high bar set
by the Sixth Circuit in Conlin and have shown in their
pleadings that they were induced to give up possession
of their home in exchange for a promise by U.S. Bank
National Association (here, Respondent) that it would
negotiate with Petitioners for repurchase of their home,
but have not been given the opportunity.
Therefore, the questions presented in this case are:
1. Whether the Sixth Circuit has negated the relief it
otherwise affords in Conlin to homeowners whose homes
have been foreclosed through fraudulent means.

ii
2. If, indeed, the Sixth Circuit opinion under review
negates the relief it otherwise afforded in Conlin to
homeowners whose homes have been foreclosed through
fraud, does such negation require that this Court provide
guidance to the Sixth Circuit, and, by extension, to
all federal circuits and state courts, as to the correct
application of res judicata and claim preclusion laws to
foreclosures obtained through fraud, especially given
the expected tsunami of foreclosures in the wake of the
COVID-19 pandemic?
3. Whether any party may stand in the shoes of a
named defendant in a federal fraud complaint?

iii
RELATED CASES
Arthur Talbot and Kelley Bezrutch v. US Bank National
Association, Case No. 19-10214, U.S. District Court for
the Eastern District of Michigan, Southern Division.
Judgment entered September 3, 2019.
Arthur R. Talbot & Kelley A. Bezrutch v. US Bank,
National Association, Case No. 19-2118, U.S. Court of
Appeals for the Sixth Circuit. Judgment entered May 8,
2020.
US Bank National Association v. Kelley Bezrutch &
Arthur Talbot, Jr., Case No. 12C-2224, 14B District Court,
Washtenaw County, Michigan. Judgment entered March
17, 2014.
Arthur Talbot, Jr. & Kelley Bezrutch v. Richard A. Davis,
Case No. 14-386-CH, Washtenaw County Circuit Court.
Judgment entered June 11, 2014.
Arthur Talbot, Jr. and Kelley Bezrutch v. Richard A.
Davis, Case No. 323240, Michigan Court of Appeals.
Judgment entered December 17, 2015.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORTIIES . . . . . . . . . . . . . . vii
Petition for Writ of Certiorari . . . . . . . . . 1
Opinions Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . . 2
Statement of the Case . . . . . . . . . . . . . . . . . . . . 3
A. Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
B. Foreclosure Actions Brought Against
Petitioners . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
C. Petitioners’ Discovery of Fraud and
Subsequent Litigation . . . . . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE WRIT . . . . . . . . . 11

v
Table of Contents
Page
A. The Coming Residential Mortgage Crisis  . . . . 11
B . The Sixth Circuit’s Failure to Follow its
Decision in Conlin  . . . . . . . . . . . . . . . . . . . . . . . . 13
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

vi
TABLE OF APPENDICES
Page
Appendix A — opinion of the UNITED
STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT, FILED MAY 8, 2020 . . . . . . . . . 1a
A ppendix B — opinion AND ORDER
of the united states DISTRICT
court FOR THE EASTERN DISTRICT
OF MICHIGAN, SOUTHERN DIVISION,
DATED SEPTEMBER 3, 2019 . . . . . . . . . . . . . . . . 15a
Appendix C — opinion of the state
of michigan court of appeals,
	dated decemBer 17, 2015 . . . . . . . . . . . . . . . . 40a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Arthur Talbot, Jr. & Kelley Bezrutch v.
Richard A. Davis,
Case No. 14-386-CH (June 11, 2014) . . . . .  9, 10, 18, 19
Arthur Talbot, Jr. and Kelley Bezrutch v.
Richard A. Davis,
Case No. 323240, Michigan Court of Appeals,
WL 9257863, at 1 (Dec. 17, 2015) . . . . . . . . . . . . . . . . 19
Bank of New York Mellon v. Carmack,
No. 321840, 2015 WL 5568405
(Mich. Ct. App. Sept. 22, 2015) . . . . . . . . . . . . . . 10, 20
Conlin v. Mortgage Elec. Reg. Sys.,
714 F.3d 355 (6th Cir. 2013)  . . . . . . . . . . . . . . 13, 15, 20
Ditmore v. Michalik,
244 Mich App. 569, 625 N.W.2d 462
(Mich. Ct. App. 2001)  . . . . . . . . . . . . . . . . . . .  10, 16, 17
Gayles v. Deutsche Bank National Trust Co.,
No. 292988, 2010 WL 4137508
(Mich. Ct. App. Oct. 21, 2010)  . . . . . . . . . . . . . . .  10, 17
LaVoy v. Alternative Loan Trust 2007-4CB,
No. 31022, 2014 WL 783497
(Mich. Ct. App. Feb. 25, 2014) . . . . . . . . . . . . . . .  10, 17

viii
Cited Authorities
Page
US Bank National Association v.
Kelley Bezrutch & Arthur Talbot, Jr.,
Case No. 12C-2224, 14B District Court
(March 17, 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Statutes and Other Authorities
United States Constitution, Article III, § 2, Clause 1 . . 2
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1332  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
FRCP 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
MCL 600.3240(8)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
New York Estates, Powers & Trusts, § 7-2.4 . . . . . . . . . 8
Beth Healy & Simon Rios, Housing Crisis Looms
As Mass. Renters And Homeowners Miss
Payments, WBUR News (August 7, 2020)  . . . . . . . 11
Chris Arnold, The Coronavirus Crisis: Loans
fo r 1st-Tim e Ho m eb uyers S ee Reco r d
Delinquencies, NPR (August 18, 2020) . . . . . . . . 11-12
Odeta Kushi, This Time it’s Different - Why a Wave
of Foreclosures is Unlikely,First American
Title Insurance Co. Blog (August 10, 2020) . . . . . . . 12

ix
Cited Authorities
Page
Press Release, The Calm Before the Coming
Coronavirus Foreclosure Storm in U.S.,
World Property Journal (July 31, 2020) . . . . . . . . . . 11
Rachel Bratt, Forecasting an economic tsunami
as foreclosures rise and mortgages sink
underwater, Boston Globe (April 16, 2020) . . . . . . . 11

1
Petition for Writ of Certiorari
Petitioners (Appellants and Plaintiffs below), Arthur
Talbot and Kelley Bezrutch, respectfully request that the
Court issue a writ of certiorari to review the judgment of
the United States Court of Appeals for the Sixth Circuit
(the “Court of Appeals” or the “Sixth Circuit”).
Opinions Below
The Opinion and Order of the U.S. District Court for
the Eastern District of Michigan, Southern Division, is
reported at Arthur R. Talbot and Kelley A. Bezrutch v.
U.S. Bank, National Association, Case Number 19-10214,
U.S. District Court for the Eastern District of Michigan,
Southern Division. Judgment entered September 3, 2019
and reproduced in Appendix B, pp. 15a - 38a (the “DC
Opinion”).
The Opinion of a panel of the Sixth Circuit is reported
at Arthur R. Talbot & Kelley A. Bezrutch v. U.S. Bank
National Association, Case Number 19-2118, U.S. Court
of Appeals for the Sixth Circuit. Judgment entered May
8, 2020 and reproduced in Appendix A, pp. 1a - 14a (the
“AC Opinion”).
Jurisdiction
The Sixth Circuit issued its Opinion on May 8, 2020.
Per U.S. Supreme Court Order No. 589 U.S., issued March
19, 2020, extending the deadline to file a Petition for Writ
of Certiorari 150 days from the date of the lower court
judgment, this Petition for Writ of Certiorari is timely
filed within such 150 days after May 8, 2020, the date of

2
issuance of the AC Opinion. This Court’s jurisdiction is
based upon 28 U.S.C., subsection 1254(1).
The Sixth Circuit issued a Notice of Oral Argument,
dated February 10, 2020 (scheduling oral argument for
March 19, 2020), and Petitioners timely filed an Oral
Argument Acknowledgement on February 19, 2020. The
Sixth Circuit, by letter dated March 16, 2020, cancelled
oral argument and, ultimately, decided the case on briefs
only.
CONSTITUTIONAL PROVISIONS INVOLVED
United States Constitution, Article III, Section 2,
Clause 1 which states:
The Judicial Power shall extend to all Cases,
in Law and Equ ity, a r ising under this
Constitution, the Laws of the United States,
and Treaties made, or which shall be made,
under their Authority;—to all Cases affecting
Ambassadors, other public Ministers and
Consuls;—to all Cases of admiralty and
maritime Jurisdiction; to Controversies to
which the United States shall be a Party;—to
Controversies between two or more States;
between a State and Citizens of another State;
between Citizens of different States,—between
Citizens of the same State claiming Land under
Grants of different States, and between a State,
or the Citizens thereof, and foreign States,
Citizens or Subjects.
Codified as 28 U.S. Code § 1332:

3
Diversity of citizenship; amount in controversy; costs.
(a) The district courts shall have original
jurisdiction of all civil actions where the
matter in controversy exceeds the sum or
value of $75,000, exclusive of interest and
costs, and is between—
(1) citizens of different States;
Statement of the Case
A. Background
Petitioners are husband and wife who, as of January
7, 2014, lived at their property located at 8333 S. Huron
River Drive, Ypsilanti, Michigan, Washtenaw County (the
“Property”) with their three children.
On August 11, 2008, unbeknownst to Petitioners,
and three years after they purchased the Property, a
Corporate Assignment of Mortgage/Deed of Trust was
entered into the county record. This assignment attempts
to assign the interest in the Property held by Petitioners’
original lender (Wilmington Finance) or its successorin-interest (Merrill Lynch, a wholly owned division of
Bank of America) to “US Bank National Association”
(“US Bank NA” or “Respondent” herein), as the trustee
for “the Specialty Underwriting and Residential Finance
Trust Mortgage Loan Asset-Backed Certificates Series
2006-BC1” [“SURF 2006-BC1”] (hereafter, the “US Bank
Assignment”).1
1. This attempted assignment is, more precisely, mediated
through “MERS, as nominee for Wilmington Finance”.

4
Beg inning in calendar year 2006, Petitioners
experienced a significant downturn in their health, and
in 2008 their business suffered as a result, and they
began to fall behind in making their mortgage payments.
Petitioners were, however, able to pay, in full, any
accumulated arrearage in July 2009. In 2010, Petitioners
attempted to refinance their loan through the federal
HARP program, and by other means, including attempts
to tender full balance or partial fair market payment for
their home, but these attempts were unsuccessful, both
prior to and following Respondent’s purported foreclosure
on Petitioners’ mortgage and note and subsequent eviction.
These attempts by Petitioners to obtain modification/
refinance or tender payment on their mortgage and note
are detailed in Petitioners’ Complaint in the District Court
(hereafter, the “Complaint”).
B. Foreclosure Actions Brought Against Petitioners
Beginning on or about August 7, 2008, Respondent
initiated three foreclosure actions against Petitioners.
Respondent is identified as the foreclosing party and selfappointed holder of Petitioners’ mortgage and note in the
foreclosure documentation.
The first such action was initiated, beginning with the
Respondent’s assignment to itself, followed by a December
10, 2009 notice served on Petitioners even after they made
full payment of arrearages in July of 2009. It is unknown
when Respondent initiated the second foreclosure action
against Petitioners, but it appears that Respondent also
abandoned this action.

5
On September 23, 2010, Respondent appears to
have initiated yet another foreclosure action against
Petitioners. After an adjournment of nearly a year, on
September 8, 2011, the Washtenaw County Sheriff held
a sale of the Property (the “Sheriff’s Sale”) whereby the
Property was purportedly purchased by Respondent for
the amount of $570,864.86, in a sale to itself. Respondent
failed to provide statutory notice to Petitioners of this
foreclosure and notice of the Sheriff’s Sale. Because
Petitioners were unaware of the Sheriff’s Sale, and were
being told by agents of Respondent that their account was
merely delinquent during a period when Petitioners were
attempting to modify/refinance their mortgage and note,
Petitioners did not redeem the Property within the sixmonth redemption period prescribed by Michigan statute
(that being, MCL 600.3240(8)). Accordingly, Respondent
initiated an eviction action in the 14B District Court (the
“Eviction Court”)(encaptioned as, US Bank National
Association v. Kelley Bezrutch & Arthur Talbot, Jr., Case
No. 12C-2224, 14B District Court, Washtenaw County,
Michigan, J. Charles Pope) on May 1, 2012 (the “Eviction
Action”).
On May 30, 2012, coincident with the Eviction Action,
the parties entered into a certain “Amended Judgment,”
wherein the parties agreed that Respondent would be
granted title to and possession of the Property in exchange
for the promise that Respondent would delay eviction of
Petitioners for a one-month period to specifically allow
the parties to negotiate repurchase of the Property (the
“Consent Order”). Respondent’s then counsel stated that,
“the bank won’t consider any offer unless the Consent
Order is in place.” One day after Respondent obtained
the Consent Order, it claimed, “the bank isn’t accepting

6
any offers[,]” including that of full payment of the asking
price and legal fee reimbursement.
Petitioners continued, however, to fight for their home
with the aid of the Eviction Court judge. Following several
procedural delays, Petitioners (Defendants in the Eviction
Action), through present counsel, again attempted to
repurchase the Property through a mediation ordered by
the Eviction Court. The mediation proved unsuccessful
as Respondent indicated it had just “accidentally sold
the home at auction.” After granting the parties further
opportunities to negotiate repurchase of the Property, it
became clear to the Eviction Court that Respondent, as
the putative foreclosing party, was not willing to negotiate
with Petitioner for any amount and the Eviction Court
finally ordered that a Writ of Restitution issue and that
Petitioners vacate their home by January 7, 2014, which
they did during the harshest winter weather in over a
decade.
Respondent quickly transferred the Property to a
home-flipper for $40,000 less than Petitioners’ last cash
offer by means of a “Covenant Deed,” dated February
27, 2014, for a total price of $236,775, which included fees.
C. Petitioners’ Discovery of Fraud and Subsequent
Litigation
At all times, Petitioners believed that they had been
dealing with the true (and sole) holder of their mortgage
and note. However, in February of 2014, following
Petitioners’ eviction from the Property, they were led
to question the validity of Respondent’s interest in the
Property after their most recent offer in the Eviction

7
Court was rejected and the judge recommended that
Petitioners conduct research in the county register
to determine ownership of the Property. Petitioners
conducted a title search of the Property and discovered a
certain “Assignment of Mortgage,” dated October 9, 2013,
from Bank of America, N.A. (the “BoA Assignment”) that
assigned Petitioners’ mortgage and note to Nationstar
Mortgage, LLC (“Nationstar” n/k/a “Mr. Cooper”), and
still shown to be in Petitioners’ names nearly two years
after Respondent’s Sheriff’s Sale.
Petitioners’ discovery of the BoA Assignment, more
than five years after Respondent’s “assignment” of
interest to itself, is, to Petitioners, compelling evidence
that the BoA Assignment represents a continuing and
viable interest in the property, and it also represents a
separate and distinct chain of title to that “chain of title”
Respondent had created for itself and which, as alleged
below, could not be extinguished at Respondent’s Sheriff’s
Sale.
Discovery of the BoA Assignment consequently
cast considerable doubt on Respondent’s interest in
the Property and the entire foreclosure process itself
(including documents entered at the Sheriff’s Sale), and
compelled Petitioners and their counsel to engage in closer
scrutiny.
After such scrutiny, Petitioners discovered that:
(a) Respondent’s Assignment, upon which their claim
to title of the Property ultimately derives, is invalid
because Respondent, via Power of Attorney, attempted
to assign an interest in the Property to itself so as to
give the appearance that Respondent obtained title

8
interest in the Property; (b) Respondent’s attempted
assignment was invalid because it violates several key
provisions of the Pooling and Servicing Agreement
(“PSA”) governing implementation and operation of the
trust over which Respondent was appointed trustee,
including the salient fact that the attempted assignment
of Petitioners’ mortgage and note to Respondent occurs
more than two years after the Trust was closed and,
therefore, runs afoul of the PSA’s outlined processes
which confirm that the Trust was unable, as a matter
of law, to accept late transfers into the Trust; (c) that
the Trust is governed by the laws of New York and that
Respondent’s attempted conveyance is in contravention of
the New York Estates, Powers & Trusts law, specifically
Section 7-2.4, which provides that Respondent’s attempted
transfer of Petitioners’ mortgage and note into the Trust
renders such transfer “void” (not merely voidable)2; and
(d), significantly, examination of the US Bank Assignment
reveals that Respondent attempted to “back-date” its own
instrument to “11/15/05” to, apparently, correct the latedating issue of (b) above.
Having discovered the late BoA Assignment and the
apparent defects in Respondent’s title to the Property,
Petitioners believed that they had a colorable claim for
superior title to that held by Respondent and, therefore,
as an expedient means to first remedy title, they filed a
complaint in the Washtenaw County Circuit Court (the
“Quiet Title Court”) against Richard A. Davis on April
2. Section 7-2.4 of the New York Estates, Powers & Trusts law
provides that: “If the trust is expressed in the instrument creating
the estate of the trustee, every sale, conveyance or other act of the
trustee in contravention of the trust, except as authorized by this
article and by any other provision of law, is void.” (emphasis added)

9
21, 2014 and encaptioned as, Arthur Talbot, Jr. & Kelley
Bezrutch v. Richard A. Davis, Case No. 14-386-CH, June
11, 2014, J. Carol Kuhnke (the “Quiet Title Action”).
In lieu of an answer to Petitioners’ complaint in
the Quiet Title Action, Respondent argued a “Motion
for Summary Disposition” on June 11, 2014. Following
oral argument in the Quiet Title Action, Judge Kuhnke
dismissed, without opinion, the Quiet Title Action and
signed an “Order Granting Defendant’s Motion for
Summary Disposition” on the same date as the hearing
(June 11, 2014)(“Quiet Title Order”).
Petitioners appealed the Quiet Title Order to the
Michigan Court of Appeals that upheld the Quiet Title
Order.
On January 29, 2019, Petitioners filed their Complaint
in the U.S. District Court for the Eastern District of
Michigan, Eastern Division (the “District Court”) against
US Bank (the “District Court Action”). Opposing counsel
appeared, first, on behalf of the named defendant, US
Bank, but, thereafter, entered an appearance for an entity
listed as “US Bank National Association, as Trustee for
the Specialty Underwriting and Residential Finance
Trust Mortgage Loan Asset-Backed Certificates Series
2006-BC1 (the “Trustee”), then filed a Motion and Brief
to Dismiss pursuant to FRCP 12(b)(6)(the “Motion”) on
February 25, 2019. Petitioners filed their Response to
Respondent’s Motion to Dismiss on March 19, 2019 (the
“Response”). The Motion was heard by the District Court
on August 29, 2019, following which, on September 3,
2019, the District Court rendered an “Opinion and Order
Granting Motion to Dismiss and Dismissing Case with

10
Prejudice” dismissing Petitioners’ District Court Action
on the basis that Petitioners failed to state a claim for
which relief can be granted (the “DC Opinion”).
Petitioners appealed the DC Opinion to the U.S. Court
of Appeals for the Sixth Circuit (the “Sixth Circuit”). The
Sixth Circuit opinion held, in essence, that Petitioners’
District Court Action fails because: (1) res judicata
applies to the District Court Action as the Eviction Action
was “an adjudication on the merits” as to Petitioners’
relinquishing possession of the Property to Respondent,
even though Petitioners, in the Eviction Action, ceded
the issue of possession of and title to the Property by
entering into the Consent Judgment (Relying on Ditmore
v. Michalik, 244 Mich App. 569, 572; 625 N.W.2d 462, 466
(Mich. Ct. App. 2001); LaVoy v. Alternative Loan Trust
2007-4CB, No. 31022, 2014 WL 783497 (Mich. Ct. App.
Feb. 25, 2014); Gayles v. Deutsche Bank National Trust
Co., No. 292988, 2010 WL 4137508 (Mich. Ct. App. Oct.
21, 2010)); (2) even if the Eviction Action did not bar the
District Court Action, the Quiet Title Action “alternatively
has preclusive effect” as the Quiet Title Court held that
the underlying foreclosure action had extinguished any
interest Petitioners had in the Property and that the
Quiet Title Court “effectively rejected any suggestion
that the foreclosure proceeding was fraudulent” or that,
“in dismissing Plaintiffs’ quiet title action, the state court
had to have found, ‘on the merits,’ that Plaintiffs had
not made a clear showing of fraud or irregularity.” AC
Opinion, Appendix A, p. 10a. (emphasis added)(Relying on
Bank of New York Mellon v. Carmack, No. 321840, 2015
WL 5568405 (Mich. Ct. App. Sept. 22, 2015)).

11
REASONS FOR GRANTING THE WRIT
A. The Coming Residential Mortgage Crisis
The current COVID-19 crisis has led many in the
residential mortgage industry to rationally speculate
that, once all moratoria on residential foreclosures have
ended, a very substantial number of foreclosures will
occur, some even predicting a “tsunami” or “flood” of
residential foreclosures. See Rachel Bratt, Forecasting
an economic tsunami as foreclosures rise and mortgages
sink underwater, Boston Globe (April 16, 2020) https://
www.bostonglobe.com/2020/04/16/opinion/forecastingan-economic-tsunami-foreclosures-rise-mortgages-sinkunderwater/ (“a new wave of mortgage default foreclosures
is on the horizon,”); Beth Healy & Simon Rios, Housing
Crisis Looms As Mass. Renters And Homeowners Miss
Payments, WBUR News (August 7, 2020) https://www.
wbur.org/news/2020/08/07/housing-eviction-mortgagemassachusetts-renters-homeowners-coronavirus (“there’s
a multi-million-dollar housing crisis brewing, researchers
say.”); Press Release, The Calm Before the Coming
Coronavirus Foreclosure Storm in U.S., World Property
Journal (July 31, 2020) https://www.worldpropertyjournal.
com/real-estate-news/united-states/irvine/real-estatenews-2020 -foreclosure-filings-report-coronavirusimpact-on-home-foreclosures-in-2020 -attom-datasolutions-foreclosure-reports-ohan-antebian-12055.php
(“Distressed property volume is almost guaranteed to
increase significantly once the moratorium is lifted because
millions of Americans missed their mortgage payments
in June and will continue to because of unemployment.”).
And, according to some, those most affected will be firsttime, relatively less affluent, homeowners. See Chris

12
Arnold, The Coronavirus Crisis: Loans for 1st-Time
Homebuyers See Record Delinquencies, NPR (August
18, 2020) https://www.npr.org/sections/coronavirus-liveupdates/2020/08/18/903524495/a-record-number-ofhomeowners-with-fha-loans-are-late-on-payments . 3
This Court is being asked to overturn the Sixth
Circuit’s Opinion to provide a remedy to Petitioners
for being wrested from their home through fraud by
Respondent (or a party attempting to stand in the shoes
of Respondent). But, importantly, given the near certainty
of another wave of foreclosures, it is incumbent on this
Court to also provide guidance to the other federal circuits
(and, by extension, state courts across the nation) when
a court receives a foreclosure case that alleges strong
facts showing that a homeowner was rendered unable to
challenge a foreclosure after expiration of the redemption
period because the foreclosing party employed fraudulent
means during, or there were significant irregularities in,
the foreclosure process.

3. On the other hand, a relative few residential mortgage
experts speculate that the number of residential foreclosures
following upon the coronavirus pandemic will not be as substantial
as those during the so-called “financial crisis” of 2008 through
2012. See, for instance, Odeta Kushi, This Time it’s Different Why a Wave of Foreclosures is Unlikely,First American Title
Insurance Co. Blog (August 10, 2020) https://blog.firstam.com/
economics/this-time-its-different-why-a-wave-of-foreclosures-isunlikely Regardless, most commentators believe that the number
of foreclosures will substantially increase once moratoria on
foreclosures have ended.

13
B. The Sixth Circuit’s Failure to Follow its Decision
in Conlin
As stated above, in the Conlin case, the Sixth Circuit
provides a means by which mortgagors might find relief
from a foreclosure that was accomplished by fraudulent
means. Petitioners assert that they sufficiently pled
facts to satisfy the high bar set by the Sixth Circuit in
Conlin and have shown in their pleadings that they were
induced to give up possession of their home in exchange
for a promise by Respondent that it would negotiate with
Petitioners for repurchase of their home, but had no
intention to thus negotiate.
The implication of Conlin is that a plaintiff may
defeat a lower court ruling denying relief from a postredemption-period foreclosure if the plaintiff can make
out ‘‘a clear showing of fraud, or irregularity,” where such
conduct ‘‘relate[s] to the foreclosure procedure itself,’’ and
that they were prejudiced by a foreclosing party’s failure
to comply with the Michigan foreclosure statute in that
they would have been in a better position to preserve
their interest in the property absent noncompliance with
the statute.
As argued in the Sixth Circuit case, Petitioners
fashioned their complaint in the District Court to meet
these high demands of Conlin:
First, Petitioners sharply focus on the fact that
Respondent created a void assignment from MERS (i.e.
the US Bank Assignment) to itself by back-dating such
assignment to make it appear as though it conformed to
the strictures of the PSA and New York trust law that

14
governed its interest and, thereby, to avoid challenges
from any number of parties, especially a challenge by
Petitioners as a foreclosed party. Complaint, parags.
41-58. Petitioners were prejudiced by this conduct
because, absent the fabrication, Respondent would not
have been confident in initiating a foreclosure on the
Property because of such flawed title. Petitioners could
have continued to work with the party with whom it was
working at this time (Respondent’s servicer, or another
agent of Respondent), or with their true lender (Bank of
America or its successor-in-interest), to cure their default
and, thereby, keep their property without being subjected
to having their home foreclosed upon.4
Second, as set forth in the Complaint, Petitioners
were further prejudiced by Respondent’s conduct in the
foreclosure proceeding itself as they received no notice
whatsoever of the last of Respondent’s foreclosure actions,
and the Sheriff’s Sale, which was adjourned for almost
a year without notice, in violation of Michigan statute.
Complaint, parag. 113. Significantly, Petitioners alleged
that, when they received inklings of a foreclosure (and
ultimately of a sheriff’s sale), Petitioners’ mortgage
holder of record would counter their prompt inquiries
about this with assurances that, indeed, their property
was not in foreclosure, foreclosed or sold, respectively.
4. In fact, Appellants were able to cure a previous
delinquency and, following lapse of the redemption period in the
latest foreclosure action, Appellants were making arrangements
with a sponsor to also cure this delinquency. As Appellants can
testify, this sponsor withdrew their offer to cure the delinquency,
or otherwise pay the redemption amount, after Appellee reneged
on its promise to negotiate repurchase of the property in
accordance with the Consent Order.

15
Complaint, parags. 82-117, especially parags. 82, 86, 94-97,
102, 114, 117. These actions and Respondent’s assertion of
their interest stand as significant “irregularities” in the
foreclosure process.
Third, Petitioners are able to show that they
were further prejudiced in being subject to double
liability in that Nationstar (n/k/a “Mr. Cooper”) has a
competing claim to Petitioners’ property through the
BoA Assignment referenced above and in their Complaint
(Complaint, parag. 61ff. and parag. 168). There are a
number of indications, as alleged in the Complaint,
that Bank of America was a predecessor in interest to
Petitioners’ property (Complaint, parags. 116ff., especially
parags. 142ff.) and that Respondent was aware of this
and the transfer of the Property from Bank of America
by its attempt to keep from Nationstar knowledge of
Respondent’s purported foreclosure of the Property.
Complaint, parags. 171-181.
Up to the present, a query of MERS indicates that
Petitioners’ mortgage was last owned by Merrill Lynch, a
division of Bank of America, NA. A query of Nationstar’s
successor, Mr. Cooper, indicates that it continues to hold
Petitioners’ note and mortgage and that Nationstar had
set up an account in Petitioners’ name showing that the
debt due to Nationstar/Mr. Cooper, in the current amount
of $468,384, has not been satisfied. It is quite probable
that, following a review of its assets and noting Petitioners’
unsatisfied debt, could bring an action for satisfaction of
the debt. This is precisely the double liability to which
Conlin refers. Conlin at 362.

16
Petitioners have, therefore, alleged sufficient facts to
show at trial that they were prejudiced by Respondent’s
actions in that Petitioners, (a) would have been in a better
position to keep their property absent flawed (indeed,
void) title as they could continue to work with a party who
was in a position to negotiate payment of the outstanding
debt on their property, (b) were ready, willing, and able to
cover the redemption value of the property (or a negotiated
amount), but were thwarted in doing so by Respondent’s
failure to provide notice to Petitioners of the foreclosure
action and Sheriff’s Sale, (c) were told by their lender, BoA,
that no foreclosure and sale of their property had occurred
and, (d), maybe subjected to an action by a competing
creditor for collection of their mortgage/note debt which
currently stands in Petitioners’ Nationstar account.
Like the District Court below, the Sixth Circuit fails
altogether to address the foregoing factual allegations
supporting Petitioners’ fraud claims. Rather, the Sixth
Circuit follows the District Court’s rulings in holding
that, first, the Eviction Action acts to bar Petitioners’
District Court action because Petitioners entered into the
Consent Order, giving Respondent possession of and title
to the Property, thus effectively extinguishing any claim
Petitioners might have to regain such possession and title.
The Sixth Circuit buttresses its ruling with three
cases out of the Michigan Court of Appeals. The first
of these, Ditmore v. Michalik, 244 Mich App. 569; 625
N.W.2d 462 (Mich. Ct. App. 2001), the Sixth Circuit uses to
support its position that a settlement agreement, such as
the Consent Order, is considered to be a judgment “on the
merits,” thus negating Petitioners’ argument that, in the
Consent Order, Petitioners ceded the issue of possession
and title to the Property and, thus, the issue was not fully

17
adjudicated. Therefore, according to the Sixth Circuit,
the Eviction Court, having “decided” this issue by issuing
the Consent Order, precludes Petitioners from bringing
a case disputing possession of and title to the Property.
AC Opinion, Appendix A, p. 5a.
The Sixth Circuit further applies two recent Michigan
Court of Appeals cases in its ruling, LaVoy v. Alternative
Loan Trust 2007-4CB, No. 31022, 2014 WL 783497 (Mich.
Ct. App. Feb. 25, 2014) and Gayles v. Deutsche Bank
National Trust Co., No. 292988, 2010 WL 4137508 (Mich.
Ct. App. Oct. 21, 2010). Both cases, like Ditmore, supra,
hold that a consent judgment, similar to the Consent Order
here, acts as a decision “on the merits” and precludes a
party from later bringing a claim that a foreclosing party
acted fraudulently in the foreclosure process. LaVoy at
8; Gayles at 4-5. What the Sixth Circuit fails to address
in its treatment of the Consent Order (as was also the
case in the District Court) is Petitioners’ supportable
allegation that the Consent Order itself was induced by
Respondent’s fraud.
The LaVoy and Gayles cases above are distinguishable
in that, in those cases, the plaintiffs had not alleged
that the settlement agreements that they had entered
into were induced by fraudulent means. Petitioners can
marshall strong evidence that Respondent had promised
to Petitioners that it would enter into negotiation of a
repurchase of the Property on the condition that they first
must sign the Consent Order relinquishing possession of
and title to the Property. 5 Upon advice of counsel at the
5. The Consent Order provides a one-month period for such
negotiation before Petitioners were to move out. Respondent assured
Petitioners that this one-month period was placed in the Consent
Order to allow for negotiation of repurchase of their home.

18
time, Petitioners viewed this as the most effective means
to regain their home. As alleged in Petitioners’ District
Court Complaint, it was clear the day after entering into
the Consent Order that Respondent was not going to
negotiate. A settlement agreement that has been obtained
through fraudulent means, such as the Consent Order
here, cannot be used to bar Petitioners from bringing
their claims, and having their factual allegations tested,
in the District Court.
The Sixth Circuit then opines that, even if the Eviction
Action does not bar Petitioners’ case, the subsequent Quiet
Title Action “alternatively has preclusive effect.” AC
Opinion, Appendix A p.9a. Petitioners argued in the Sixth
Circuit that the judge in the Quiet Title Action summarily
dismissed Petitioners’ case ruling that, since the Property
had been foreclosed in a “valid” foreclosure proceeding
and that Petitioners failed to redeem the Property within
the six-month redemption period, Petitioners’ interest in
the Property was extinguished and they, therefore, lacked
standing to bring their action. As Petitioners argued in
the Sixth Circuit, the failure of the judge in the Quiet Title
Action to give any attention whatsoever to their fraud
claims, to rule that the foreclosure process was valid, and
to dismiss on the basis of a lack of standing, did not amount
to a decision “on the merits” and that such a ruling could
not act as a bar to Petitioners’ District Court Action.
To the contrary, the Sixth Circuit opines that “the
state court’s opinion rejected (albeit in shorthand)
theories that are substantially similar, if not identical,
to the ones Plaintiffs raise here.” Appendix A, p. 10a
(emphasis added). Then, in summary fashion, the Sixth
Circuit adds that,

19
“In holding that a valid foreclosure proceeding
extinguished any interest Plaintiffs had in the
home, the state court effectively rejected any
suggestion that the foreclosure proceeding
was fraudulent. Put differently, in dismissing
Plaintiffs’ quiet title action, the state court had
to have found, ‘on the merits,’ that Plaintiffs
had not made a clear showing of fraud or
irregularity--a claim they seek to reassert
here.”
Appendix A, p. 10a (emphasis added).
The Sixth Circuit here follows the line of reasoning
adopted by the Michigan Court of Appeals in Petitioners’
appeal of the Quiet Title Action6 and adopted in the DC
Opinion, Appendix A, pp. 26a - 36a.
6. The Michigan Court of Appeals essentially parrots the
reasoning of Judge Kuhnke in its opinion affirming her decision
to dismiss the Quiet Title Action:
Although the property in this case was foreclosed
on and the redemption period expired, plaintiffs
nevertheless argue that they have a continuing
interest in the property, which is evidenced by a postforeclosure assignment. However, it is undisputed
that plaintiffs fell behind in their payments, US
Bank initiated foreclosure, US Bank purchased the
property, US Bank was issued a sheriff’s deed, and
plaintiffs failed to redeem the property. Accordingly,
plaintiffs’ interest in the property was extinguished.
Arthur Talbot, Jr. and Kelley Bezrutch v. Richard A. Davis, Case
No. 323240, Michigan Court of Appeals, WL 9257863, at 1 (Dec.
17, 2015). Appendix C, pp. 40a-42a at 41a-42a.

20
CONCLUSION
Thus, none of the courts that Petitioners looked to
as fora that they assumed would, at least, consider their
claims of fraud, did so. Petitioners claims and factual
allegations were NEVER considered, NEVER addressed
NOR tested in any way by any of these courts, but were,
instead, “swatted away” summarily by misapplication of
Michigan’s res judicata and/or claim preclusion principles.7
Moreover, the Sixth Circuit has effectively negated the
means it provides in Conlin by which homeowners might
find relief from a foreclosure that was accomplished by
fraudulent means. Such a homeowner cannot avail itself
of such means if the Sixth Circuit (and courts following
it) will not allow a homeowner to attempt a showing of
fraud in the foreclosure process or in any actions of an
unscrupulous foreclosing party.
Petitioners are asking not only for “their day in
court” to present their claims, and the facts supporting
these claims, but, importantly, Petitioners ask this Court
to consider their petition with an eye toward the many
foreclosure cases that will undoubtedly arise in the wake
of the coronavirus pandemic that has decimated the
financial stability of millions of Americans and who will
be faced with, in many cases, unscrupulous entities that
employ similar tactics as Respondent has in the instant
case, e.g. back-dating of title documentation, dual-tracking
7. The Sixth Circuit’s reliance on Bank of New York Mellon
v. Carmack, No. 321840, 2015 WL 5568405 (Mich. Ct. App. Sept.
22, 2015) in its opinion (Appendix A, p. 10a,) is misplaced as, in
that case, the claimant had an opportunity to have his claims and
factual allegations considered in the state circuit court. See Bank
of New York Mellon, at 3.

21
(initiating and continuing a foreclosure process while
informing a distressed homeowner that their home is not
in foreclosure), by demanding settlement agreements
that wrest possession and title to a property before
homeowners have an opportunity to contest a foreclosure
procedure.
Therefore, Petitioners ask that this Court overturn
the AC Opinion and order the Sixth Circuit to remand
Petitioners’ action to the District Court with instructions
consistent with this Court’s guidance as to proper
application of res judicata and claim preclusion principles
to fraud claims brought against foreclosing parties.
Dated this 5th day of October, 2020
Respectfully submitted,
John F. Brent, Esq.
Counsel of Record
1901 Pauline Boulevard
Ann Arbor, MI 48103
(734) 761-5222
jbrentlaw@gmail.com
Counsel for Petitioners

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT, FILED MAY 8, 2020
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Case No. 19-2118
ARTHUR R. TALBOT & KELLEY A. BEZRUTCH,
Plaintiffs-Appellants,
v.
U.S. BANK NATIONAL ASSOCIATION,
Defendant-Appellee.
May 8, 2020, Filed
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE
EASTERN DISTRICT OF MICHIGAN
OPINION
BEFORE: STRANCH, READLER, and MURPHY,
Circuit Judges.
CHAD A. READLER, Circuit Judge. Arthur Talbot
and Kelley Bezrutch lost their home in a state eviction
suit brought by their home mortgagee. They then lost a

2a
Appendix A
related quiet title action against the home’s new owner
in which they claimed that the mortgagee fraudulently
manufactured its ownership claim. Talbot and Bezrutch
then brought this suit in federal court, challenging the
validity of the foreclosure. The district court dismissed
the action as barred by the res judicata doctrine. Seeing
no error in the district court’s judgment, we AFFIRM.
I. BACKGROUND
In 2005, Plaintiffs Arthur Talbot and Kelley Bezrutch
purchased a home in Ypsilanti, Michigan, with the backing
of a mortgage from Bank of America, N.A. In 2008, the
mortgage was assigned to Defendant U.S. Bank National
Association, the trustee for a mortgage-backed security,
nicknamed SURF 2006-BC1.
Not long thereafter, Plaintiffs fell behind on their
mortgage payments. U.S. Bank initiated foreclosure
proceedings, and later purchased the property at a
sheriff’s sale in 2011. Michigan law afforded Plaintiffs
a sixth-month statutory redemption right. Mich. Comp.
Laws § 600.3240(8). When Plaintiffs did not exercise that
right, U.S. Bank filed an eviction action. Hoping to resolve
the action through a buyback, the parties agreed to an
amended consent judgment, through which Plaintiffs
conceded that U.S. Bank would be granted title to and
possession of the home, on the condition that the bank
delay eviction to attempt a negotiation through which
the Plaintiffs could repurchase the property. While the
parties negotiated, on October 9, 2013, Bank of America,
N.A. recorded an assignment of its interest in the property

3a
Appendix A
that indicated that it was Plaintiffs’ lender and mortgagee.
When the parties’ negotiations fell through in 2014,
Plaintiffs were evicted, and Defendant sold the property
to a new owner, Robert Davis, for $225,500.
Plaintiffs filed a motion before the eviction court
arguing that Defendant had acted in bad faith when it
refused to accept Plaintiffs’ buyback offers of $570,864.
It is not clear what relief this motion requested given that
the property had been sold. At the motion hearing, there
was confusion about who currently owned the property,
and the court told Plaintiffs’ counsel he could look this
information up in the county registry. When Plaintiffs’
counsel conducted a title search, he noticed that Bank of
America, N.A., a non-party, had recorded an assignment of
its interest in the property on October 9, 2013, indicating
that it was Plaintiffs’ lender and mortgagee even though
it had not been a party to the foreclosure or eviction
proceedings. Based on this information, Plaintiffs filed a
quiet title action against the home’s subsequent purchaser.
Plaintiffs claimed that the 2013 assignment of their
mortgage from Bank of America to Nationstar Mortgage
(U.S. Bank’s mortgage servicer) proved the existence of
a competing chain of title that could not be extinguished
by the 2011 sheriff’s sale. Additionally, Plaintiffs claimed
that U.S. Bank falsely back-dated the 2008 assignment to
2005 because the Pooling Service Agreement governing
SURF 2006-BC1 did not allow U.S. Bank to accept the
mortgage into the trust after 2006.
The state court summarily dismissed the action.
Because Plaintiffs had defaulted on their mortgage and

4a
Appendix A
did not redeem the property within the statutory period,
their interest in the property was extinguished. And
because Plaintiffs lacked an interest in the property, the
court concluded, they could not bring suit to reclaim the
property. The Michigan Court of Appeals affirmed on the
same reasoning. Talbot v. Davis, No. 323240, 2015 Mich.
App. LEXIS 2406, 2015 WL 9257863, *1 (Mich. Ct. App.
Dec. 17, 2015).
Plaintiffs then brought this suit in federal court.
Asserting facts and claims similar to those from the
underlying state court litigation, Plaintiffs asked the
federal court to find that U.S. Bank fraudulently instigated
the eviction. The district court, however, dismissed the
lawsuit on the basis that Plaintiffs were barred by the res
judicata doctrine from re-litigating issues already settled
in state court. Plaintiffs timely appealed.
II. ANALYSIS
A. Res Judicata
We review de novo a district court’s application of
res judicata (also known as claim preclusion). Ohio ex rel.
Boggs v. City of Cleveland, 655 F.3d 516, 519 (6th Cir. 2011).
As a federal tribunal, we give prior state proceedings—
here proceedings from Michigan—the same res judicata
effect they would have in the Michigan courts. Anderson
v. City of Blue Ash, 798 F.3d 338, 350 (6th Cir. 2015) (citing
Boggs, 655 F.3d at 519). We thus look to Michigan law to
assess “the preclusive effect” a Michigan court “would
attach to that judgment.” Id. To that end, res judicata bars

5a
Appendix A
a second action when “(1) the prior action was decided on
the merits, (2) both actions involve the same parties or
their privies, and (3) the matter in the second case was,
or could have been, resolved in the first.” Adair v. State,
470 Mich. 105, 680 N.W.2d 386, 396 (Mich. 2004) (citation
omitted). For preclusion purposes, both the underlying
eviction and quiet title actions presented claims and issues
like those raised here. We accordingly measure whether
res judicata attached to either judgment, or both.
The Eviction Action. First up, for purposes of a res
judicata analysis, is the underlying eviction action between
the parties. After U.S. Bank foreclosed on Plaintiffs’ home
and purchased the home in the ensuing sheriff’s sale, U.S.
Bank initiated an eviction action in state court.
As to the first res judicata factor, we agree with the
district court that the eviction action was “decided on the
merits.” The action concluded with a consent judgment,
which, under Michigan res judicata principles, is an
adjudication on the merits. Ditmore v. Michalik, 244 Mich.
App. 569, 625 N.W.2d 462, 466 (Mich. Ct. App. 2001).
It makes no difference that Plaintiffs conceded (rather
than litigated) U.S. Bank’s title to and possession of the
home. Instructive here are two Michigan cases, LaVoy v.
Alternative Loan Trust 2007-4CB, No. 310322, 2014 Mich.
App. LEXIS 365, 2014 WL 783497 (Mich. Ct. App. Feb. 25,
2014), and Gayles v. Deutsche Bank Nat’l Trust Co., No.
292988, 2010 Mich. App. LEXIS 2040, 2010 WL 4137508
(Mich. Ct. App. Oct. 21, 2010). In LaVoy, a defaulting
plaintiff agreed in an eviction action to a consent judgment,

6a
Appendix A
through which she committed to vacating the property
after a certain date. 2014 Mich. App. LEXIS 365, 2014 WL
783497, at *1. The plaintiff then filed a fraud action against
the foreclosing party, asserting that the foreclosing party
did not actually hold the mortgage because of defects in
how that party acquired the mortgage. 2014 Mich. App.
LEXIS 365, [WL] at *3. But as the consent judgment was
considered to be “on the merits,” the plaintiff’s second suit
was barred by res judicata. 2014 Mich. App. LEXIS 365,
[WL] at *7 (citing Ditmore, 625 N.W.2d at 466).
In Gayles, a defaulting plaintiff, through a consent
judgment, acknowledged that the foreclosing party had
a right to possess the home, and thus agreed to move
out. 2010 Mich. App. LEXIS 2040, 2010 WL 4137508, at
*1. Later, the plaintiff filed suit alleging the same fraud
theory asserted here: that the mortgage assignment to the
foreclosing party post-dated the foreclosure proceedings.
Id. That subsequent action, the court concluded, was
barred by res judicata, as the consent judgment resolved
the matter “on the merits.” 2010 Mich. App. LEXIS
2040, [WL] at *3. As LaVoy and Gayles together reflect,
the eviction action against Plaintiffs was resolved on the
merits, even if the resolution was the result of a consent
judgment.
The second res judicata element is also satisfied, as the
parties in the eviction action are identical to those here.
With respect to the third res judicata factor, ordinarily
we would ask whether the fraud claim was or could have
been resolved in the eviction action. See Sprague v.

7a
Appendix A
Buhagiar, 213 Mich. App. 310, 539 N.W.2d 587, 588 (Mich.
Ct. App. 1995). But that is not so where the prior action,
like the eviction action here, was pursued in the form of
a summary proceeding. For in that setting, there exists
a limited statutory exception to the general res judicata
rule; “[a] judgment for possession [pursuant to a summary
proceeding] does not merge or bar any other claim for
relief.” J.A.M. Corp v. AARO Disposal, Inc., 461 Mich.
161, 600 N.W.2d 617, 621 (Mich. 1999) (citing Mich. Comp.
Laws § 600.5750). The Michigan courts have construed
this provision as preventing res judicata from attaching
to claims that could have been (but were not) raised in a
summary proceeding. Sewell v. Clean Cut Mgmt., Inc.,
463 Mich. 569, 621 N.W.2d 222, 225 (Mich. 2001).
In other words, if the eviction action against Plaintiffs
actually resolved their fraud claim, then, res judicata
principles would apply here. Id. Which takes us back to
LaVoy. Citing Sewell, LaVoy held that a consent judgment
through which the plaintiff agreed to move out in lieu of
being evicted immediately resolved and thus barred a
claim in a subsequent action asserting that the foreclosure
was predicated on fraud. 2014 Mich. App. LEXIS 365, 2014
WL 783497, at *7-8. In the subsequent action, the plaintiff
asserted “that the sheriff’s sale was invalid and [the]
defendant has no legal right to ownership and possession
of the property.” 2014 Mich. App. LEXIS 365, [WL] at *7.
But by conceding the “defendant’s legal right to ownership
and possession” in the consent judgment, the plaintiff had
“acknowledged [the] defendant’s right to possession and
the validity of the sheriff’s sale because a valid foreclosure
procedure and sheriff’s sale resulting in [the] defendant’s

8a
Appendix A
possession of the property is a prerequisite to . . . an
eviction order.” 2014 Mich. App. LEXIS 365, [WL] at *8.
Accordingly, the “consent judgment was conclusive” as
to the “defendant’s right of possession,” meaning that
“res judicata bar[red] relitigation of the validity of the
foreclosure proceedings and the sheriff’s sale.” Id.
And, for good measure, back to Gayles as well. Also
citing Sewell, Gayles held that a consent judgment in which
the plaintiff agreed that the foreclosing party had a right
to possession, with an order of eviction to issue at a later
date, resolved, for res judicata purposes, a subsequent
suit claiming fraud in the foreclosure procedure. 2010
Mich. App. LEXIS 2040, 2010 WL 4137508, at *4. By not
raising the issue in the summary proceeding, and instead
consenting to the defendant’s entitlement “to possession
of the property,” the plaintiff “implicitly agreed that the
foreclosure was valid,” thereby resolving any purported
fraud claim. Id.
As with the consent judgments in LaVoy and Gayles,
Plaintiffs’ consent judgment also resolved any claim that
the foreclosure was premised on fraud. Plaintiffs agreed
to a consent judgment that recognized U.S. Bank’s right
to title in and possession of the home. That argument
is entirely at odds with their claim today that U.S.
Bank’s foreclosure was fraudulent because of defects in
mortgage transfers. The Gayles plaintiff made virtually
the same argument—that a post-foreclosure assignment
of the mortgage to the foreclosing party showed that
the foreclosing party had no authority to initiate the
foreclosure. 2010 Mich. App. LEXIS 2040, 2010 WL

9a
Appendix A
4137508, at *1. Like in Gayles and LaVoy, Plaintiffs’
concession in the eviction action resolves any later claim
that U.S. Bank fraudulently claimed title and possession.
Res judicata thus bars Plaintiffs’ claims.
The Quiet Title Action. Even if the eviction action
does not bar today’s case, the subsequent quiet title action
alternatively has preclusive effect. We again turn to the
elements of res judicata.
Most contentious is the question whether the dismissal
of the quiet title action was “on the merits.” The state
court dismissed the quiet title action because Plaintiffs
did not redeem the home in the statutory six-month period
following foreclosure, meaning they had no interest in
the home. That rationale was also adopted by the state
appellate court in affirming the trial court. 2015 Mich.
App. LEXIS 2406, 2015 WL 9257863, at *1.
Under Michigan law, an involuntary dismissal does not
“operate[] as an adjudication on the merits” if the dismissal
was for lack of jurisdiction. Mich. Ct. R. 2.504(B)(3). While
the state court’s opinion does not use the term “standing,”
Michigan cases, we note, have characterized this theory of
dismissal as one of “standing.” See LaVoy, 2014 Mich. App.
LEXIS 365, 2014 WL 783497, at *4 (explaining that the
trial court held that the plaintiff lacked standing because
her interest was extinguished by the expiration of the
redemption period). Plaintiffs characterize the dismissal
of their quiet title action as a jurisdictional holding (and
thus not “on the merits”) because the dismissal was due
to the absence of statutory standing as a result of their
lack of interest in the property.

10a
Appendix A
Digging deeper into the state court proceeding,
however, it is clear the state court’s opinion rejected (albeit
in shorthand) theories that are substantially similar, if
not identical, to the ones Plaintiffs raise here. Plaintiffs,
all agree, failed to redeem their property during the
statutory redemption period. Having failed to make that
redemption, to set aside the foreclosure, Plaintiffs had to
“make a clear showing of fraud or irregularity.” Conlin v.
Mortg. Elec. Registration Sys., Inc., 714 F.3d 355, 359 (6th
Cir. 2013) (citing Schulthies v. Barron, 16 Mich. App. 246,
167 N.W.2d 784, 785 (Mich. Ct. App. 1969)). In holding that
a valid foreclosure proceeding extinguished any interest
Plaintiffs had in the home, the state court effectively
rejected any suggestion that the foreclosure proceeding
was fraudulent. Put differently, in dismissing Plaintiffs’
quiet title action, the state court had to have found, “on the
merits,” that Plaintiffs had not made a clear showing of
fraud or irregularity—a claim they seek to reassert here.
Treating the state court’s dismissal as a resolution
on the merits is consistent with Bank of N.Y. Mellon v.
Carmack, No. 321840, 2015 Mich. App. LEXIS 1775, 2015
WL 5568405 (Mich. Ct. App. Sept. 22, 2015). Carmack
applied Michigan res judicata law to an earlier federal
court decision. In the earlier proceeding, the district court
held that the plaintiff failed to redeem the property within
the relevant period and did not demonstrate the fraud or
irregularity necessary to allow the plaintiff to maintain
standing to challenge the foreclosure. 2015 Mich. App.
LEXIS 1775, [WL] at *1-3. After losing his federal case,
the plaintiff initiated a summary proceeding in state court.
There, he alleged that the foreclosure was fraudulent

11a
Appendix A
because the wrong party acted as the foreclosing party.
2015 Mich. App. LEXIS 1775, [WL] at *2. But, the state
court concluded, that matter was “already tested in the
federal courts.” 2015 Mich. App. LEXIS 1775, [WL]
at *4 (internal quotations omitted). The federal court’s
dismissal of the plaintiff’s challenge to the foreclosure was
thus “on the merits” for res judicata purposes. We view
the quiet title action here in the same light.
Next up is whether both actions involve the same
parties or their privies. While the parties to the quiet title
action are not identical to those here, those parties are in
privity. Privity embraces “successive relationships to the
same right of property,” and requires “substantial identity
of interests and a working or functional relationship . . .
in which the interests of the non-party are presented
and protected by the party in the litigation.” Phinisee v.
Rogers, 229 Mich. App. 547, 582 N.W.2d 852, 854 (Mich.
Ct. App. 1998) (internal citations and quotations omitted).
By the time of the quiet title action, U.S. Bank had sold
the home to Robert Davis, so Plaintiffs filed suit against
Davis, not the bank. But as the successor in interest to
the home, Davis had every incentive to protect the bank’s
interest in a valid chain of title (from which Davis derives
his ownership). In that respect, Davis and U.S. Bank are
in privity, satisfying the second res judicata requirement.
We thus turn to the last element of res judicata—
whether the claim was resolved in the prior action. That
analysis is straightforward. In the quiet title action,
Plaintiffs made many of the same allegations they make
here, including that the alleged assignment post-dated

12a
Appendix A
foreclosure, and that U.S. Bank allegedly backdated the
original assignment. Resolution of the prior action thus
resolves the claims before us today, either because they
were raised and rejected, or because they arose from the
same transaction, and thus could have been raised. See
Sprague, 539 N.W.2d at 589 (citations omitted).
In sum, all three elements of res judicata are satisfied.
The quiet title action bars this suit.
B. Remaining Claims
Finally, we turn to a supposed dispute over whether
the attorney appearing on behalf of U.S. Bank actually
represents the party to this proceeding. Below, Plaintiffs
claimed it was unclear whether Defendant’s lawyer, David
Dell, represents U.S. Bank in its role as the foreclosing
entity, or in the bank’s capacity as trustee for SURF
2006-BC1. During a hearing, the district court confirmed
that Dell represented the named Defendant. Although
Plaintiffs, in their own words, “appeared to be satisfied”
with the colloquy, “upon further reflection” they now
believe Dell was intentionally ambiguous as to the entity
he represented.
Yet much of the “evidence” Plaintiffs identify to
assert their contention—for example, that Dell acted
evasively in a conference call and mediation session—
has no support in the record below. Not in the district
court filings, the transcripts, nor in the docket. See Fed.
R. App. P. 10(a) (explaining that the appellate record
consists of papers and exhibits filed in district court,

13a
Appendix A
the transcript of proceedings, and the docket). We will
not consider additional purported facts for the first time
today. United States v. Husein, 478 F.3d 318, 335 (6th Cir.
2007) (A “party may not bypass the fact-finding process
of the lower court and introduce new facts in its brief on
appeal.’”) (quoting Sovereign News Co. v. United States,
690 F.2d 569, 571 (6th Cir. 1982)).
Only one of Plaintiffs’ factual contentions has
any bearing in the record: that Dell filed a Notice of
Appearance representing U.S. Bank, N.A., as Trustee
for SURF 2006-BC1, rather than U.S. Bank, N.A. The
district court has broad discretion in managing the case
and deciding the propriety of party representation in this
matter. See ACLU of Ky. v. McCreary County, 607 F.3d
439, 451 (6th Cir. 2010) (noting the district court’s broad
discretion in managing cases on its docket (citing Reed v.
Rhodes, 179 F.3d 453, 471 (6th Cir. 1999))). It is not clear,
as an initial matter, that U.S. Bank, as a foreclosing entity,
and U.S. Bank in its role as trustee for SURF 2006-BC1,
are separate entities. Consider the facts of Gorbach v. US
Bank Nat’l Ass’n, No. 308754, 2013 Mich. App. LEXIS
158, 2013 WL 331610 (Mich. Ct. App. Jan. 29, 2013). There,
U.S. Bank, as a trustee to a mortgage-backed security
trust, was sued in relation to a foreclosure. 2013 Mich.
App. LEXIS 158, [WL] at *1. The captioned party was
U.S. Bank, without a trustee designation. Yet the court
seemingly took no issue with treating U.S. Bank and U.S.
Bank as trustee as the same entity. See also US Bank
Nat’l Ass’n v. Coulthard, No. 323452, 2015 Mich. App.
LEXIS 2382, 2015 WL 8964358, *1 (Mich. Ct. App. Dec.
15, 2015) (proceeding to the merits of the case, without

14a
Appendix A
discussing the fact that the caption listed only U.S. Bank,
when U.S. Bank was sued in its capacity as the trustee
for the Washington Mutual Mortgage Pass—Through
Certificate Series 2003-S4).
And in any event, the district court did not abuse
its discretion in its effort to clarify any purported
confusion. Dell explained to the district court that he
was merely using the same naming convention as that
used in the earlier foreclosure action. At bottom, what
matters is whether the proper party, with proper counsel,
was before the court. See Koons v. Walker, 76 Mich.
App. 726, 257 N.W.2d 229, 231-32 (Mich. Ct. App. 1977)
(holding that a defendant, in his capacity as the owner of
a motorcycle shop, was properly made party to the suit,
despite the complaint incorrectly naming the prior owner
as the defendant). Here, the district court found Dell’s
representation that he was the proper counsel “sufficient.”
That is sufficient for us too.
III. CONCLUSION
For these reasons, we AFFIRM the judgment of the
district court.

15a
AppendixAND
B ORDER OF THE
APPENDIX B — OPINION
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF MICHIGAN, SOUTHERN
DIVISION, DATED SEPTEMBER 3, 2019
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case Number 19-10214
Honorable David M. Lawson
ARTHUR R. TALBOT
AND KELLEY A. BEZRUTCH,
Plaintiffs,
v.
U.S. BANK, NATIONAL ASSOCIATION,
Defendant.
OPINION AND ORDER GRANTING
MOTION TO DISMISS AND DISMISSING CASE
WITH PREJUDICE
After falling behind on their mortgage payments, and
unsuccessfully pursuing several lawsuits, the plaintiffs
lost their home to foreclosure. They have filed yet another
lawsuit, this time alleging fraud against the foreclosing
bank, based on the premise that the bank misrepresented
throughout the foreclosure proceedings that it had a valid
claim on the property. The plaintiffs continue to assert

16a
Appendix B
that alleged defects in the chain of title rendered that
claim false. But the validity of the bank’s interest was
an essential fact that anchored each of the judgments
against the plaintiffs in the state court cases. Since that
fact was determined against them, it cannot be contested
here without running afoul of established preclusion
doctrines. For this reason, the defendant’s motion to
dismiss the complaint must be granted and the case must
be dismissed.
I.
Because this is a motion to dismiss, the following facts
are stated as alleged in the plaintiffs’ extensive (38-page,
191-paragraph) complaint, except where otherwise noted.
In August 2005, plaintiffs Arthur Talbot and Kelley
Bezrutch entered into a purchase contract to buy their
former home on South Huron River Drive in Ypsilanti,
Michigan for $574,000. They made a down-payment of
$86,100 and financed the balance of $487,900 with a loan
made by Wilmington Finance. The loan was secured
by a mortgage. The loan was “securitized” into a trust
arrangement with defendant U.S. Bank, N.A. as Trustee.
The plaintiffs allege that there were improprieties in the
transfer of the mortgage via the trust, including that
transfers of interest were not recorded or were backdated so that they appeared to have occurred years
before they actually happened. The plaintiffs eventually
ran into problems keeping up with their payments on the
mortgage, and defendant U.S. Bank initiated a foreclosure
proceeding in state court on December 10, 2009.

17a
Appendix B
T he pla i nt i f fs a l lege t hat t he defenda nt
“misrepresented” throughout the foreclosure proceedings
that it had a valid claim on the property, when, because of
the alleged defects in the chain of title, in fact it had none.
Throughout 2010, the plaintiffs attempted to negotiate a
loan modification with the defendant, but to no avail. At
some point, the defendant’s counsel represented that the
sheriff’s sale “would be adjourned” to December 9, 2010, so
that the plaintiffs could further pursue a loan modification.
However, when plaintiffs spoke to loan servicing agents in
November 2010, they were told that the law firm plaintiffs
had been “working with” was not assigned to the account,
and that the plaintiffs should communicate with the
defendant directly and continue to submit information
to support the loan modification request. Plaintiffs
communicated further with the defendant during 2011
and were given conflicting reports about the status of their
account. And at one point they received a letter indicating
that their monthly payment had been increased by more
than $2,000 per month to cover the accrued delinquency.
On September 8, 2011, while the defendant was
still telling the plaintiffs that their loan was merely
“delinquent” and not “in foreclosure,” a sheriff’s sale was
held, at which the defendant was the high bidder. In April
2012, the defendant’s agents presented to the plaintiffs a
“move out agreement” indicating that the defendant had
obtained title to the property by the foreclosure sale and
proposing that if the plaintiffs moved out by May 28, 2012,
then the defendant would pay them $3,385. Plaintiffs heard
nothing further until they were served with an eviction
complaint on May 7, 2012. The plaintiffs initially failed to

18a
Appendix B
appear at a hearing due to their misunderstanding about
which court the case was filed in, and a default judgment
was entered against them.
The plaintiffs retained counsel who negotiated
a consent order under which plaintiffs would retain
possession of the home for another month, during which
the defendant represented that they could continue to
negotiate a redemption of the property. However, after
the consent order was issued, the defendant refused
to entertain the plaintiffs’ offer to make a lump sum
payment to retire the delinquency on the loan. The
plaintiffs continued to make offers to redeem the property,
which were refused. Eventually, in July 2012, an eviction
notice was posted at the property, and plaintiffs’ counsel
withdrew from the case, after representing that he “could
not accomplish anything further.”
In August 2012, the plaintiffs filed a motion to stay
the eviction, which was granted by the state court. A
mediation was scheduled, but the plaintiffs did not attend
because a notice of the mediation date was mailed to the
wrong address. Because they failed to appear, a default
judgment again was entered. However, the plaintiffs
managed to retain new counsel, who successfully moved to
set aside the default. A new mediation date was scheduled,
and the state court ordered the plaintiffs to pay $3,300
per month into an escrow account, which they did. The
plaintiffs then offered to redeem the property for a cash
payment of $285,000, which was above its market value
but below the loan balance. The plaintiffs and their
counsel appeared at a July 22, 2013 mediation hearing,

19a
Appendix B
at which they were told that the property had been sold
by defendant at auction.
The state court held a hearing to determine the
status of the case after the “surprise” auction sale.
At that hearing, defendant’s counsel represented that
the defendant would not consider any offer other than
redemption for the full deficiency amount of more than
$574,000. The state court judge ordered the parties to
continue negotiating and to attempt to reach a repurchase
agreement and to return to court in two months time. On
September 30, 2013, another hearing was held at which
defendant’s counsel again refused to entertain any offer
less than repurchase for the full redemption amount.
The state court then entered an order vacating the stay
of eviction and giving the plaintiffs 45 days to vacate the
property. A writ of restitution was issued on December
12, 2013, and, after a brief stay of execution was granted,
the plaintiffs moved out on January 7, 2014.
The plaintiffs allege that the defendant falsely
represented throughout the foreclosure process that it
was the holder of the mortgage, and that it had a right to
foreclose on the property, but that it was willing to work
with the plaintiffs to negotiate a repurchase agreement.
However, the plaintiffs contend, throughout the process
another lender (Bank of America) actually owned the
loan, not the defendant, and, as a result, the defendant
never had any right to possession, despite its attempts
to record back-dated assignments of interest purporting
to transfer the loan to it. The plaintiffs allege that “they
suffered serious injury in that [they] lost their home

20a
Appendix B
to foreclosure and were evicted from their home in the
middle of the Winter of 2014, lost much of [the] contents
of their home, and [the plaintiffs] and their children were
forced to split up and live in different counties with such
of their relatives who could accommodate them, the entire
process of which in turn, caused serious psychological/
emotional trauma to Plaintiffs and to their children and
physical harm to Plaintiffs.” Compl. ¶ 191, ECF No. 1,
PageID.37. It appears to be undisputed that the plaintiffs
never exercised their statutory right of redemption after
the foreclosure sale.
Although not discussed in the complaint, it appears
to be undisputed — and confirmed by state court public
records — that the plaintiffs subsequently filed a quiet
title action against the present owner of the home,
alleging that the foreclosure was invalid based on the
same improprieties discussed above. The case eventually
was dismissed on a motion for summary disposition. The
plaintiffs appealed, and in its order affirming the dismissal
the Michigan Court of Appeals stated the following brief
recap:
Although the property in this case was foreclosed
on and the redemption period expired, plaintiffs
nevertheless argue that they have a continuing
interest in the property, which is evidenced by
a post-foreclosure assignment. However, it is
undisputed that plaintiffs fell behind in their
payments, U.S. Bank initiated foreclosure, U.S.
Bank purchased the property, U.S. Bank was
issued a sheriff’s deed, and plaintiffs failed to

21a
Appendix B
redeem the property. Accordingly, plaintiffs’
interest in the property was extinguished.
Talbot v. Davis, No. 323240, 2015 Mich. App. LEXIS
2406, 2015 WL 9257863, at *1 (Mich. Ct. App. Dec. 17,
2015). The plaintiffs also evidently filed suit against the
defendant’s law firm, Orlans Associates, P.C., alleging that
it wrongfully converted funds deposited into the escrow
account during the foreclosure proceedings. That case
also was dismissed summarily.
The plaintiffs filed their complaint in this Court on
January 29, 2019. The defendant responded with its motion
to dismiss.
II.
A.
The defendant brought its motion to dismiss under
both Federal Rule of Civil Procedure 12(b)(1) and 12(b)(6).
Rule 12(b)(1) “provides for the dismissal of an action for
lack of subject matter jurisdiction.” Cartwright v. Garner,
751 F.3d 752, 759 (6th Cir. 2014). The defendant argues
that the plaintiffs’ complaint amounts to little more than
an attack on the state court judgments of eviction and
denying their quiet title claim. Therefore, it says, only
the Supreme Court has jurisdiction to entertain such a
challenge, according to the Rooker-Feldman doctrine.
“The Rooker-Feldman doctrine bars lower federal
courts from conducting appellate review of final statecourt judgments because 28 U.S.C. § 1257 vests sole

22a
Appendix B
jurisdiction to review such claims in the Supreme Court.”
Berry v. Schmitt, 688 F.3d 290, 298 (6th Cir. 2012) (citing
Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S.
280, 291, 125 S. Ct. 1517, 161 L. Ed. 2d 454 (2005)). “Rooker
v. Fidelity Trust Co., 263 U.S. 413, 44 S. Ct. 149, 68 L.
Ed. 362 (1923), and District of Columbia Court of Appeals
v. Feldman, 460 U.S. 462, 103 S. Ct. 1303, 75 L. Ed. 2d
206 (1983), hold that only the Supreme Court may review
judgments entered by state courts in civil litigation.”
Fowler v. Benson, 924 F.3d 247, 254 (6th Cir. 2019). The
eponymous “doctrine, therefore, bars a lower federal
appellate court from reviewing a plaintiff’s claim when
a state court’s judgment is the source of the plaintiff’s
injury.” Ibid.
Here, the plaintiffs’ claim is based on common law
fraud. It is true that the premises underlying that claim
are inconsistent with the state court judgments, but
the plaintiffs are not attacking the judgments as such.
They do not seek to set aside the judgment of eviction or
recover title to the property. Instead, they seek to recover
damages stemming from the allegedly independent
fraudulent actions of the defendant that instigated the
foreclosure, which resulted inevitably thereafter in the
dispossession.
It is well settled that “[t]he Rooker-Feldman
doctrine . . . is confined to cases of the kind from which
the doctrine acquired its name: cases brought by statecourt losers complaining of injuries caused by state-court
judgments rendered before the district court proceedings
commenced and inviting district court review and rejection

23a
Appendix B
of those judgments.” Exxon Mobil Corp. v. Saudi Basic
Indus. Corp., 544 U.S. 280, 284, 125 S. Ct. 1517, 161 L.
Ed. 2d 454 (2005). The doctrine does not “stop a district
court from exercising subject-matter jurisdiction simply
because a party attempts to litigate in federal court a
matter previously litigated in state court. If a federal
plaintiff presents some independent claim, albeit one that
denies a legal conclusion that a state court has reached in
a case to which he was a party, then there is jurisdiction
and state law determines whether the defendant prevails
under principles of preclusion.” Id. at 293 (quotations
omitted).
In the foreclosure context, the Sixth Circuit repeatedly
has held that a suit premised on independently fraudulent
conduct by a defendant, not comprising a direct attack
on the judgment of possession, is not barred by RookerFeldman. See, e.g., Veasley v. Fed. Nat. Mortg. Ass’n
(FNMA), 623 F. App’x 290, 295 (6th Cir. 2015) (“Veasley’s
complaint claims that the defendants engaged in
independent acts, i.e. the assignment of a faulty mortgage
in violation of Mich. Comp. Laws § 600.3204, which gave
rise to the state court’s judgment of possession. RookerFeldman does not preclude this court’s jurisdiction over
Veasley’s case because the previous action in Michigan’s
46th court, in which Fannie Mae sought to recover
possession of 24669 Lafayette, was merely a continuation
of the injury stemming from BAC’s faulty assignment and
subsequent foreclosure proceedings. Veasley does not
claim that the state court judgments are unconstitutional
or in violation of federal law; instead Veasley raises an
independent claim which this court has jurisdiction to

24a
Appendix B
review.”); Brown v. First Nationwide Mortg. Corp., 206
F. App’x 436, 440 (6th Cir. 2006) (“Brown’s allegations of
fraud in connection with the state court proceedings . . .
did not constitute complaints of injuries caused by the
state court judgments, because they do not claim that
the source of Brown’s alleged injury is the foreclosure
decree itself. Instead, the claims concern the actions of
defendant First Nationwide (and others) that preceded
the decree. Therefore, Brown’s claim that the mortgage
foreclosure decree was procured by fraud is not barred
by Rooker-Feldman.”). Those cases stand in contrast with
suits where the plaintiffs seek directly or by implication
to overturn the state court judgment, which RookerFeldman does prohibit. E.g., Givens v. Homecomings
Fin., 278 F. App’x 607, 609 (6th Cir. 2008) (“Givens
requests in his complaint . . . a temporary injunction
that would ‘enjoin Defendants from physically entering
onto plaintiff’s property’ and that would ‘dispose of any
other civil or procedural action regarding the subject
property.’ Because the point of this suit is to obtain a
federal reversal of a state court decision, dismissal on
the grounds of Rooker-Feldman was appropriate.”).
That is true regardless of how “intertwined” the factual
premises of the causes of action are with any dispositive
facts contested in the state court action. Todd v. Weltman,
Weinberg & Reis Co., L.P.A., 434 F.3d 432, 437 (6th
Cir. 2006) (“This situation was explicitly addressed by
the Exxon Mobil Court when it stated that even if the
independent claim was inextricably linked to the state
court decision, preclusion law was the correct solution to
challenge the federal claim, not Rooker-Feldman.”).

25a
Appendix B
The defendant’s jurisdictional challenge is not well
taken. It does not furnish a basis to dismiss the complaint.
B.
The defendant also invokes Rule 12(b)(6), however,
contending for several reasons that the complaint fails
to state a viable claim. “To survive a motion to dismiss
[under that rule], a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’” Ashcroft v. Iqbal, 556
U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009)
(quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
547, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)). A “claim is
facially plausible when a plaintiff ‘pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.’”
Matthew N. Fulton, DDS, P.C. v. Enclarity, Inc., 907 F.3d
948, 951-52 (6th Cir. 2018) (quoting Iqbal, 556 U.S. at 678).
When reviewing the motion, the Court “must ‘construe
the complaint in the light most favorable to the plaintiff[]
[and] accept all well-pleaded factual allegations as true.’”
Id. at 951 (quoting Hill v. Snyder, 878 F.3d 193, 203 (6th
Cir. 2017)).
When deciding a motion under Rule 12(b)(6), the Court
looks only to the pleadings. Jones v. City of Cincinnati,
521 F.3d 555, 562 (6th Cir. 2008). But the Court also may
consider the documents attached to them, Commercial
Money Ctr., Inc. v. Illinois Union Ins. Co., 508 F.3d 327,
335 (6th Cir. 2007) (citing Fed. R. Civ. P. 10(c)), documents
referenced in the pleadings that are “integral to the

26a
Appendix B
claims,” id. at 335-36, documents that are not mentioned
specifically but which govern the plaintiff’s rights and are
necessarily incorporated by reference, Weiner v. Klais
& Co., Inc., 108 F.3d 86, 89 (6th Cir. 1997), abrogated on
other grounds by Swierkiewicz v. Sorema, N.A., 534 U.S.
506, 122 S. Ct. 992, 152 L. Ed. 2d 1 (2002), and matters of
public record, Northville Downs v. Granholm, 622 F.3d
579, 586 (6th Cir. 2010); see also Cates v. Crystal Clear
Tech., LLC, 874 F.3d 530, 536 (6th Cir. 2017) (instructing
that “‘[w]hen a written instrument contradicts allegations
in the complaint to which it is attached, the exhibit trumps
the allegations.’”) (quoting Williams v. CitiMortgage, Inc.,
498 F. App’x 532, 536 (6th Cir. 2012)). However, beyond
that, assessment of the facial sufficiency of the complaint
ordinarily must be undertaken without resort to matters
outside the pleadings. Wysocki v. Int’l Bus. Mach. Corp.,
607 F.3d 1102, 1104 (6th Cir. 2010) .
The defendant contends that the plaintiffs have not
stated a viable claim in their complaint because their
attempt to relitigate the propriety of the foreclosure
is barred by the doctrine of res judicata, they have no
legal interest in the property and thus have no standing
to challenge the assignment of the mortgage which
preceded the foreclosure, the fraud claims all are timebarred, and the fraud allegations are not pleaded with
sufficient particularly under Rule 9(b). Only the first of
those arguments need be addressed.
Res judicata and its sister doctrine, collateral
estoppel, are sometimes referred to, respectively, as
claim preclusion and issue preclusion. “Claim and issue

27a
Appendix B
preclusion generally prevent parties from raising an
argument that they already fully litigated in an earlier
legal proceeding.” Anderson v. City of Blue Ash, 798
F.3d 338, 350 (6th Cir. 2015). “‘State-court judgments are
given the same preclusive effect under the doctrines of
res judicata and collateral estoppel as they would receive
in courts of the rendering state.’” Ibid. (quoting Ohio ex
rel. Boggs v. City of Cleveland, 655 F.3d 516, 519 (6th Cir.
2011)). “In other words, if an individual is precluded from
litigating a suit in state court by the traditional principles
of res judicata, he is similarly precluded from litigating
the suit in federal court.” Ibid. (quotations omitted). The
Court will “‘look to the state’s law to assess the preclusive
effect it would attach to that judgment.’” Ibid.
These preclusion doctrines bar the plaintiffs from
relitigating for a third time the sole substantive question
on which their fraud claim turns, which is whether the
defendant had the legal standing to initiate a foreclosure
proceeding against their home. The plaintiffs’ complaint
is replete with allegations of other improprieties by
the defendant, which center principally around (1) the
allegedly defective, fraudulent, or invalid conveyance to
the defendant of its asserted ownership interest in the
mortgage, and (2) repeated broken or illusory promises to
entertain overtures by the plaintiffs aimed at securing a
loan modification or redemption of the property. However,
the gravamen of the fraud claim is best illustrated by the
plaintiffs own pleading at the outset of the complaint:
Plaintiffs dispute the title and ownership of
the Property in that the originating mortgage

28a
Appendix B
lender (Wilmington Finance), and others alleged
to have ownership of Plaintiffs’ mortgage and
note, have unlawfully sold, assigned and/or
transferred their ownership and security
interest in Plaintiffs’ mortgage and note, and,
thus, do not have lawful ownership or a security
interest in the Property sufficient to foreclose
on the Property.
For these reasons, the Court should find that
Defendant fraudulently obtained title to the
Property, as further alleged below, and award
to Plaintiffs damages they have incurred as a
result of Defendant’s fraudulent conduct against
Plaintiffs.
Compl. ¶ 12-13, ECF No. 1, PageID.4. Moreover, the
plaintiffs disclaim in their response any attempt to
pursue claims premised on broken promises or defective
assignments; instead, they explain that those allegations
were added merely as “background” to illustrate how the
defendant misrepresented its legal standing. They insist
that their sole substantive claim of fraudulent misconduct
is based on the defendant’s wrongful commencement and
continuation of foreclosure and possession actions that it
had no standing to bring in the first instance.
The plaintiffs, therefore, have trained their sights on
the one fact essential to their fraud claim, namely, that
the defendant misrepresented that it had a legal interest
in the property. It is elementary that to prevail on their
fraud claim the plaintiffs must plead and prove that the

29a
Appendix B
defendant represented that it had standing to foreclose,
and that the representation was false. Johnson v. USA
Underwriters, 936 N.W.2d 834, No. 340323, 2019 WL
2111326, at *3 (Mich. Ct. App. May 14, 2019). But that fact
necessarily has been decided against them in two state
court proceedings.
1.
Under Michigan law, “[r]es judicata applies if ‘(1) the
prior action was decided on the merits, (2) both actions
involve the same parties or their privies, and (3) the matter
in the second case was, or could have been, resolved in
the first.’” Ibid. (quoting Adair v. State, 470 Mich. 105,
121, 680 N.W.2d 386, 396 (2004)). Here, the judgment of
possession in the eviction proceeding has conclusive res
judicata effect on the question whether the defendant had
the right to foreclose and obtain possession of the home.
First, it is undisputed that the summary proceeding was
decided on the merits when, after considerable litigation, a
judgment of possession and writ of restitution were issued
by the state court. Second, the parties were identical in
both suits.
Third, the question whether the defendant had the
right to foreclose on the property and obtain possession
necessarily and conclusively was settled adversely to the
plaintiffs by the issuance of the judgment dispossessing
them of the home. Michigan’s statute governing summary
proceedings for possession, Michigan Compiled Laws
§ 600.5714(1)(g), provides that “‘[a] person entitled
to possession of premises may recover possession by

30a
Appendix B
summary proceedings . . . [w]hen a person continues in
possession of premises sold by virtue of a mortgage or
execution, after the time limited by law for redemption
of the premises.’” Johnston v. Sterling Mortg. & Inv.
Co., 315 Mich. App. 724, 757, 894 N.W.2d 121, 137 (2016).
The Johnston court confronted and squarely rejected
claims identical to those raised in the present suit, where
a plaintiff attempted in a subsequent quiet title action
to relitigate the propriety of the defendants’ title claim
that was a necessary premise of the summary judgment
for possession. As the court held, “[t]he statute merely
provides that possession is not a landlord’s only remedy
[and] ‘[n]othing in the statute or in JAM Corp. v. AARO
Disposal, Inc., 461 Mich. 161, 600 N.W.2d 617 (1999),
stands for the proposition that, having litigated in the
district court the issue who has the right to the premises,
that question can be relitigated de novo in a subsequent
suit. Such an approach would empty Mich. Comp. Laws
§ 600.5701 et seq. of all significance.’” Johnston, 315 Mich.
App. at 757, 894 N.W.2d at 138 (quoting Sewell v. Clean
Cut Mgmt., Inc., 463 Mich. 569, 575, 621 N.W.2d 222, 224
(2001)).
The plaintiffs principally cite the Michigan Supreme
Court’s JAM Corporation decision for the proposition that
claims which “could have been brought” in the summary
eviction proceeding but were not actually litigated are not
subject to the ordinarily broad preclusion of all potential
claims under Michigan’s concept of claim preclusion. But
as the Sewell court explained, the question here is settled
by a straightforward application of Michigan’s rule of
res judicata because the issue of the propriety of the

31a
Appendix B
defendant’s title claim and right to obtain possession which
the plaintiffs now seek to revisit was actually litigated,
and comprised the precise central legal question squarely
and necessarily taken up by the eviction court:
Our decision in JAM Corp. said nothing about
the preclusive effect of claims actually litigated
in the summary proceedings. Thus, the “other
claims of relief,” described in JAM Corp. were
those claims that “could have been” brought
during the summary proceedings, but were
not. This Court was not describing subsequent
claims involving the issues actually litigated in
the summary proceedings.
In the present case, Ms. Sewell sought damages
for personal injuries suffered on Mr. Cruse’s
premises and for damage to personal property.
Mr. Cruse says she was a trespasser and that
the circuit court should have granted a directed
verdict in his favor. We need not decide in this
opinion the full effect of the district court’s
judgment and writ, with respect to the status of
Ms. Sewell as she entered the premises or the
extent, if any, of Mr. Cruse’s duty toward her.
However, we do hold that, where the district
court judgment and writ have not been reversed
or vacated, they are conclusive on the narrow
issue whether the eviction was proper.
Unlike JAM Corp., this case presents a question
regarding the preclusive effect of a claim

32a
Appendix B
that was actually litigated in the summary
proceeding. Therefore, the limited statutory
exception to Michigan’s res judicata rule does
not apply.
Sewell, 463 Mich. at 576-77, 621 N.W.2d at 225 (quotations
and citations omitted).
In summary proceedings under Michigan law, the
plaintiff — in this case U.S. Bank — has the burden to
prove that it has a right to possession of the property.
Rathnaw v. Hatch, 281 Mich. 402, 404, 275 N.W. 189,
189 (1937). That essential element, therefore, must have
been “actually litigated” in the eviction and quiet title
proceedings.
Just as in the Sewell case, the plaintiffs here seek
to recover purported “damages” that flowed from what
they allege was a fraudulently instigated eviction. But
they are barred from relitigating whether the defendant
had the legal standing — that is, had an interest in the
property — to obtain its judgment of possession, because
that question necessarily was litigated and settled in the
summary proceeding.
2.
The plaintiffs did not raise any counter-claim for
“fraud” in the eviction case, and such a claim nominally
would not be barred by Michigan’s rule against claim
preclusion (except as noted above), due to the limited
application of that concept to summary proceedings for

33a
Appendix B
possession. See JAM Corp., 461 Mich. at 168-69, 600 N.W.2d
at 621 (recognizing that “the Legislature took [summary
proceedings] cases outside the realm of the normal rules
concerning merger and bar in order that attorneys would
not be obliged to fasten all other pending claims to the
swiftly moving summary proceedings”). However, the
plaintiffs are additionally barred from pursuing any such
claims here by the application of collateral estoppel (a.k.a.
issue preclusion) based on the later quiet title action.
That is because all the claims of fraudulent conduct by
the defendant expressly were pleaded by the plaintiffs in
their complaint in the quiet title suit, which was against
defendant’s successor in interest, and those claims were
dismissed on the merits by the state court and affirmed
on appeal.
Under Michigan law, “‘[c]ollateral estoppel bars
relitigation of an issue in a new action arising between
the same parties or their privies when the earlier
proceeding resulted in a valid final judgment and the
issue in question was actually and necessarily determined
in that prior proceeding.’” Ibid. (quoting Leahy v. Orion
Twp., 269 Mich. App. 527, 530, 711 N.W.2d 438, 441 (2006)).
“Unlike res judicata, which precludes relitigation of
claims, collateral estoppel prevents relitigation of issues,
which presumes the existence of an issue in the second
proceeding that was present in the first proceeding.” Ibid.
(citations omitted). “‘Generally, for collateral estoppel to
apply three elements must be satisfied: (1) a question of
fact essential to the judgment must have been actually
litigated and determined by a valid and final judgment; (2)
the same parties must have had a full and fair opportunity

34a
Appendix B
to litigate the issue; and (3) there must be mutuality of
estoppel.’” Ibid. (quoting Monat v. State Farm Ins. Co.,
469 Mich. 679, 682-84, 677 N.W.2d 843, 845-46 (2004)).
First, there is no question that the judgment in the
quiet title action was a valid and final judgment, which was
upheld on appeal. The plaintiffs here argue that the claims
were different because the Davis “action was one to quiet
title based on the existence of two competing title chains,
the alleged inferior chain being held by Davis.” But as to
the specific issue of the propriety of U.S. Bank’s institution
of the foreclosure, and the validity of its ensuing deed, the
factual grounds of the claims in both cases are identical.
The plaintiffs thus are estopped from relitigating the
merits of the same issue that already was resolved
against them when their claims in the Davis case were
dismissed with prejudice. Because the claim of superior
title actually was raised by the plaintiffs in the quiet
title action and determined adversely to them, they are
barred from relitigating it here. In re Dott Acquisition,
LLC, 520 B.R. 588, 607 (Bankr. E.D. Mich. 2014)
(“[T]he ownership of the Real Property and Equipment
was expressly placed in issue in the counterclaim filed
by Dott Acquisition in the Oakland County Lawsuit.
Paragraph 58 of the counterclaim sought a declaration
that TTOD has no right to maintain any action for the
return of the Real Property and Equipment. The issue of
ownership was actually litigated in the Oakland County
Circuit Court. [T]he issue of ownership of the Real
Property and Equipment was necessarily determined,
unfavorably to Dott Acquisition, by the express dismissal
of Dott Acquisition’s counterclaims in the Opinion and

35a
Appendix B
the Judgment.”); Johnston v. Sterling Mortg. & Inv.
Co., 315 Mich. App. 724, 756, 894 N.W.2d 121, 137 (2016)
(“[T]he summary proceeding involved the same parties
as the present case (or their privies), the case was decided
on its merits, and Appellants raised the argument that
Appellees frustrated their attempts to redeem the
property; therefore, res judicata and collateral estoppel
precluded Appellants from bringing the quiet title
action.”); Bryan v. JPMorgan Chase Bank, 304 Mich.
App. 708, 716, 848 N.W.2d 482, 486 (2014) (“In this case,
the prior eviction involved the same parties as the present
case, the case was decided on its merits, and plaintiff raised
the argument that the foreclosure was void ab initio;
therefore, res judicata and collateral estoppel precluded
plaintiff from bringing this quiet title action.”); Laues v.
Roberts, No. 14-12313, 2015 U.S. Dist. LEXIS 38726, 2015
WL 1412631, at *7 (E.D. Mich. Mar. 25, 2015) (“All of the
requirements for issue preclusion are also satisfied in this
case, with regard to the Laueses’ allegations attacking
the validity of the mortgages and fraud in connection with
the mortgage loans. That is, those issues were raised and
actually litigated in Laues I, the determination of those
issues was necessary to the outcome of the proceeding,
Judge Roberts issued a final judgment on the merits in
Laues I, and the Laueses had a full and fair opportunity
to litigate those issues. Accordingly, the Laueses’ claims
are barred by both claim and issue preclusion.”).
Second, the plaintiffs certainly had a “full and fair
opportunity” to litigate the pleaded claims of fraud, which
were set out in their complaint in materially identical
detail to the claims set forth in their pleadings here.

36a
Appendix B
The plaintiffs counter that they “would not have had
factual development sufficient to bring a full fraud claim
against Defendant.” But that contention is belied by the
factual recitations in the quiet title complaint, which are
materially identical in substance to their pleadings of U.S.
Bank’s improprieties described in this case. The plaintiffs
alleged in their complaint in the quiet title case that the
defendant, Robert Davis, was a “successor-in-interest
to the Property through a ‘Covenant Deed’ provided
by [U.S. Bank, N.A.] to Defendant dated February 27,
2014.” Compl. ¶ 4, ECF No. 7-12, PageID.230, Talbot v.
Davis, No. 14-386 (Washtenaw Cty. Cir. Ct. Apr. 21, 2014).
The plaintiffs claimed that the “Defendant’s Covenant
Deed to the Property is invalid and unenforceable,” for
the verbatim reasons recited in their present complaint,
including that the assignment of the mortgage was
invalid and not recorded, and that it violated various
other statutory and regulatory requirements. Compl. ¶ 5,
PageID.230-37. The plaintiffs alleged that their title claim
was superior to Davis’s due to the defects in the chain of
title obtained by U.S. Bank, N.A., which, according to
them, invalidated Davis’s title. The plaintiffs’ claim of
superior title was dismissed on the merits by the state
court and affirmed on appeal.
Third, the estoppel is mutual because, had the suit
gone otherwise, Davis would have been as bound to the
result as were the plaintiffs when their claims failed.
The plaintiffs point out that the Davis lawsuit involved
different parties, since U.S. Bank, N.A. was not named as
a defendant, and they argue that Davis was not in privity
with U.S. Bank. But the argument that privity does not
obtain is contrary to well settled Michigan law.

37a
Appendix B
“In order to find privity between a party and a
nonparty, Michigan courts require both a substantial
identity of interests and a working or functional
relationship in which the interests of the non-party are
presented and protected by the party in the litigation.”
Peterson Novelties, Inc. v. City of Berkley, 259 Mich. App.
1, 13, 672 N.W.2d 351, 359 (2003) (quotations omitted). It
is well settled under Michigan law that in a title contest
privity embraces a successor in interest by purchase from
a party to a prior action for possession. Id. at 13 n.9, 672
N.W.2d at 359 n.9 (“[E]ven if Barman was not the owner
at the relevant time, a privy includes one who, after
rendition of the judgment, has acquired an interest in the
subject matter affected by the judgment through one of
the parties, as by inheritance, succession, or purchase.”)
(citing Wildfong v. Fireman’s Fund Ins. Co., 181 Mich.
App. 110, 448 N.W.2d 722 (1989)). The element of privity
is satisfied.
III.
The Court has subject matter jurisdiction over the
claims pleaded and the suit is not barred by RookerFeldman. However, the plaintiffs are barred by claimand issue-preclusion principles from relitigating the
propriety of the defendant’s claim to possession and title
of their home, which conclusively was settled by the prior
actions for eviction and quiet title. Those prior actions,
including the pleadings and judgments filed in those cases,
are matters of public record properly considered when
adjudicating this motion to dismiss under Rule 12(b)(6).
Because they are barred from prevailing on an essential

38a
Appendix B
element of their fraud claim, the plaintiffs have not stated
a claim for which relief can be granted.
Accordingly, it is ORDERED that the defendant’s
motion to dismiss the complaint (ECF No. 7) is GRANTED.
It is further ORDERED that the complaint is
DISMISSED WITH PREJUDICE.
/s/ David M. Lawson
DAVID M. LAWSON
United States District Judge
Date: September 3, 2019

39a
Appendix B
PROOF OF SERVICE
The undersigned certifies that a copy of the foregoing
order was served upon each attorney or party of record
herein by electronic means or first-class U.S. mail on
September 3, 2019.
s/Susan K. Pinkowski
SUSAN K. PINKOWSKI

40a
Appendix C —Appendix
opinionC of the state
of michigan court of appeals, dated
decemBer 17, 2015
STATE OF MICHIGAN
COURT OF APPEALS
No. 323240
ARTHUR TALBOT, JR. AND KELLEY BEZRUTCH,
Plaintiffs-Appellants,
v
RICHARD A. DAVIS,
Defendant-Appellee.
Washtenaw Circuit Court
LC No. 14-000386-CZ
December 17, 2015
Before: Shapiro, P.J., and O’Connell and Wilder, JJ.
Per Curiam.
Plaintiffs Arthur Talbot, Jr., and Kelley Bezrutch
brought this quiet title action against defendant Richard A.
Davis, who subsequently moved for summary disposition
pursuant to MCR 2.116(C)(8) and (C)(10). The trial court
granted defendant’s motion. Plaintiffs now appeal as of
right. We affirm.

41a
Appendix C
The trial court did not specify whether it granted
the motion under MCR 2.116(C)(8) or (C)(10); however,
the trial court relied on plaintiffs’ failure to redeem
the property, which was a fact outside the pleadings.
Accordingly MCR 2.116(C)(10) is the appropriate basis
for review. See Silberstein v Pro-Golf of America, Inc,
278 Mich App 446, 457; 750 NW2d 615 (2008) (“Where a
motion for summary disposi tion is brought under both
MCR 2.116(C)(8) and (C)(10), but the parties and the trial
court relied on matters outside the pleadings . . . MCR
2.116(C)(10) is the appropriate basis for review. “). We
review de novo the trial court’s decision on a motion for
summary disposition. Johnson v Recca, 492 Mich 169, 173;
821 NW2d 520 (2012). “[A] motion under MCR 2.116(C)
(0) tests the factual sufficiency ofthe complaint[.]” Joseph
v Auto Club Ins Ass’n, 491 Mich 200, 206; 815 NW2d 412
(2012). Summary disposition under MCR 2.116(C)(10)
is proper when “[e]xcept as to the amount of damages,
there is no genuine issue as to any material fact, and the
moving party is entitled to judgment or partial judgment
as a matter of law.”
“In an action to quiet title, the plaintiffs have the
burden of proof and must make out a prima facie case
of title.” Beulah Hoagland Appleton Qualified Personal
Residence Trust v Emmet Co Rd Com’n, 236 Mich App
546, 550; 600 NW2d 698 (1999). Although the property
in this case was foreclosed on and the redemption period
expired, plaintiffs nevertheless argue that they have a
continuing interest in the property, which is evidenced by
a post-foreclosure assignment. However, it is undisputed
that plaintiffs fell behind in their payments, US Bank

42a
Appendix C
initiated foreclosure, US Bank purchased the property,
US Bank was issued a sheriff’s deed, and plaintiffs failed
to redeem the property. Accordingly, plaintiffs’ interest in
the property was extinguished. See Bryan v JPMorgan
Chase Bank, 304 Mich App 708, 714; 848 NW2d 482 (2014)
(explaining that once the redemption period expires, the
mortgagor’s “rights in and title to the property [are]
extinguished”). Therefore, plaintiffs cannot make a prima
facie showing of their interest, Beulah Hoagland Appleton
Qualified Personal Residence Trust, 236 Mich App at 550,
and the trial court properly granted defendant’s motion
for summary disposition.1
Affirmed.
/s/ Douglas B. Shapiro
/s/ Peter D. O’Connell
/s/ Kurtis T. Wilder

1. In reaching our conclusion, we note that even if plaintiffs’
argument that the assignment was invalid had merit, because
the foreclosure extinguished their rights to the property, the
foreclosure would have to be set aside before plaintiffs could show
that they still had an interest in the property. And, on appeal,
plaintiffs adamantly argue that they are not challenging the
underlying foreclosure.

